 SBA'S PROCUREMENT OF INFORMATION 

TECHNOLOGY HARDWARE AND SOFTWARE 

  THROUGH ISIKA TECHNOLOGIES, INC. 

             Report Number: 11-08 

         Date Issued: February 25, 2011 

             U.S. Small Business Administration
             Office of Inspector General                                      Memorandum
     To: 	   Jon I. Carver                                                                                 Date:     February 25,2011
             Chief Financial Officer
             /s/ Original Signed
  From:      Peter L. McClintock 

             Deputy Inspector General 


Subject: 	   Audit on SBA's Procurement ofInformation Technology Hardware and Software through
             Isika Technologies, Inc., Project No. 10018

             This report presents the results of our audit of SBA' s procurement of information
             technology (IT) hardware and software through Isika Technologies, Inc. (iTechnologies).
             The objective of this audit was to determine whether SBA officials: (1) properly planned
             and awarded contracts to iTechnologies for the procurement of manufactured IT
             hardware and software; and (2) accurately reported contract data for these awards to the
             Federal Procurement Data System - Next Generation (FPDS-NG)l .
             To achieve the first audit objective, we reviewed pertinent Code of Federal Regulations
             (CFR), Federal Acquisition Regulations (FAR), SBA's Standard Operating Procedure
             (SOP) 00 11 IH, Annual Acquisition Strategy and Procurement Planning, and
             iTechnologies contract files . We also interviewed personnel from the Office of the Chief
             Information Officer (OCIO), the Office of Business Operations, and the contractor. To
             address the second audit objective, we compared data in the contract files to a limited
             number of data fields reported by SBA to FPDS-NG. We conducted our review between
             August 2010 and November 2010 in accordance with Government Auditing Standards
             prescribed by the Comptroller General of the United States.

             BACKGROUND
             During fiscal years (FY) 2009 and 2010, SBA awarded two Indefinite­
             Delivery/Indefinite-Quantity (IDIQ) contracts, a Blanket Purchase Agreement (BP A),
             and five purchase order contracts totaling nearly $7.6 million for IT hardware and
             software, as follows :

                     • 	 On September 21,2009, SBA awarded a 5-year IDIQ contract to iTechnologies
                         for $5 million to procure IT hardware and software.



             I	   FPDS-NG is a comprehensive, web-based tool used by Federal agencies to report contract actions that is avai lable to Congress and
                  the general public for informational purposes.
                                                                                                                                  2


      • 	 One week later, the contracting officer increased the contract value to 

          $5.442 million via a contract modification. 


      • 	 On December 9,2009, SBA awarded a 2-year IDIQ contract to iTechnologies for
          $2 million for the same IT hardware and software requirement.

      • 	 In January 2010, SBA de-scoped $1,372,260 from the initial IDIQ contract, and
          awarded a BPA to iTechnologies on February 16,2010, for the same value using
          Recovery Act funds.

      • 	 In March and April 2010, SBA awarded five purchase order contracts under the
          first IDIQ contract for nearly $150,000 to iTechnologies to procure IT hardware
          and software.

All of these awards, listed in Table 1, were made for the same IT hardware and software
requirement on a sole-source basis under the 8(a) Business Development Program. 2 At
the time of these awards, SBA's Associate Administrator (AA) for Management and
Administration (M&A) was responsible for the procurement function. 3

                                               Table 1 

                              Contracts Awarded to iTechnologies for the 

                              Procurement of IT Hardware and Software 


                                                                                Initial               Contract Value
                       Contract                    Contract                    Contract                 Including
      Date             Vehicle                     Number                       Value                 Modifications
    9121/2009            IDIQ                 SBAHQ-09-D-0009              $     5,000,000           $         4,070,480
    12/0912009           IDIQ                 SBAHQ-10-D-000I                    2,000,000                     2,000,000
    211012010             BPA                 SBAHQ-10-A-000I                    1,372,260                     1,372,260
    3111/2010        Purchase Order           SBAHQ-10-M-0111                       76,369                        76,369
    311912010        Purchase Order           SBAHQ-10-M-0118                       16,198                        16,198
    311912010        Purchase Order           SBAHQ-10-M-0119                       11,847                        11,847
    4/0512010        Purchase Order           SBAHQ-10-M-0130                       40,067                        40,067
    411012010        Purchase Order           SBAHQ-10-M-0135                        3,287                         3,287
                                                                           $     8,520,028           $         7,590,508

IDIQ contracts are appropriate for procuring supplies and services when the government
anticipates recurring requirements but cannot determine the precise quantities that will be
needed within a specific period. An IDIQ typically establishes a minimum quantity of
supplies and services to be purchased and may establish a maximum as well. Contracting
officers then issue task or delivery orders against the IDIQ to purchase supplies and


2 The SBA 8(a) Business Development Program was created to assist eligible small disadvantaged business concerns compete in the
  American economy through business development.
3 On October 1,2010, the SBA Administrator transferred the Agency 's internal procurement responsibility from the AA for M&A
  to the Office of the Chief Financial Officer (OCFO).
                                                                                                                                        3


services that fulfill the Government's needs. FAR Subpart 16.5, Indefinite-Delivery
Contracts, establishes a preference for awarding IDIQ contracts to multiple contractors
rather than to a single contractor.

BPAs are similar to IDIQ contracts in that they allow the Government to order supplies
and services when there is a variety of similar products required, but the exact items and
quantities are unknown. However, BPAs do not justify purchasing from a single source
and the requirements of FAR Subpart 19.5, Set-Asidesfor Small Business, still apply.

Several recent SBA Office ofInspector General (OIG) reports contain findings similar to
those in this report. Report Number 10-08, SBA 's Efforts to Improve the Quality of
Acquisition Data in FPDS, dated February 26,2010, disclosed that almost all contract
actions reported in FPDS-NG for FYs 2008 and 2009 data contained at least one
inaccurately reported FPDS-NG data element. As of December 17,2010, SBA had not
implemented any corrective actions to satisfy the recommendations made in this report.
SBA OIG Recovery Oversight Memorandum 10-16, SBA's Planning and Award ofthe
Customer Relationship Management Contracts dated June 29, 2010, reported that SBA
violated the Non-manufacturer Rule 4 by issuing an 8(a) contract for a requirement that
did not qualifY for small business award.

RESULTS

SBA inadequately planned and inappropriately awarded two 8(a) sole-source IDIQ
contracts and a BPA to iTechnologies for the procurement ofIT hardware and software.
Specifically:

        • 	 The designated acquisition planner did not prepare, coordinate, or obtain approval
            for a comprehensive, written acquisition plan, as required by the FAR and internal
            SBA guidance.

        • 	 The contracting officer awarded the IDIQ contracts and BPA without first
            ensuring that an appropriate acquisition plan had been implemented and approved
            for this requirement.

        • 	 The contracting officer classified these contracts using incorrect North American
            Industry Classification System (NAICS) codes.

        • 	 The IDIQ contracts and BPA awarded to iTechnologies did not qualify as 8(a)
            sole-source procurements under the Non-manufacturer Rule.




4   According to FAR 19.001, "Non-manufacturer Rule" means that a contractor under a small business set-aside or 8(a) contract shall
    be a small business under the applicable size standard and shall provide either its own product or that of another domestic small
    business manufacturing or processing concern.
                                                                                                                4


       • 	 SBA contracting personnel split the same requirement among the two IDIQ
           contracts and a BPA which circumvented 8(a) sole-source procedures established
           by the FAR.

       • 	 SBA inaccurately reported to FPDS-NG at least one data element relating to 100
           percent 5 of the iTechnologies actions.

As a result, SBA: 1) did not have reasonable assurance that it received the best value in
these contracts; 2) violated the Competition in Contracting Act and federal regulations;
and, 3) misled FPDS-NG users by providing inaccurate data.

The Procurement of IT Hardware/Software was Inadequately Planned

Acquisition planning is the most critical part of the acquisition process and establishes
the direction for subsequent actions throughout the procurement. According to the FAR,
the purpose of acquisition planning is to ensure that the Government meets its needs in
the most effective, economical, and timely manner. FAR Part 7, Acquisition Plans,
Subpart 102 (FAR 7.102) states that agencies shall perform acquisition planning and
conduct market research for all acquisitions. To ensure that the acquisition process is
consistent, the FAR states that acquisition planning should begin as soon as an agency
need is identified and involve contracting, fiscal, legal, and technical personnel.
The FAR requires a written acquisition plan that addresses all technical, business,
management, and other significant considerations that will control the acquisition.

SBA did not complete adequate acquisition planning for the procurement of IT hardware
and software from iTechnologies. While SBA prepared a draft acquisition plan,
significant sections of the plan were not in conformance with the FAR and the plan was
not approved by required personnel. FAR 7.105 requires that acquisition plans include,
among other things, a statement of need, reliable cost estimates, procurement risk, risk
mitigation strategies, and an explanation of the business strategy. SBA's draft acquisition
plan did not include or adequately address all of these elements. Specifically:

       • 	 The plan stated that SBA needed to procure IT hardware or software from an 8(a)
           company but did not provide the rationale for why the equipment was needed
           (i.e., whether the property would replace old or outdated equipment, be used to
           supplement existing equipment, or be acquired for a specific use).

       • 	 The plan included a cost estimate of $5 to $10 million for the initial IDIQ 

           contract, based on the projected minimal annual purchase of hardware. 

           However, no support was provided for the cost estimate. 


       • 	 The acquisition plan did not identify an adequate mitigation strategy for
           performance risks. Rather, the acquisition plan states to mitigate cost risk, SBA



5   Alll20 contract actions we reviewed had one or more data elements incorrectly reported by SBA to FPDS-NG.
                                                                                          5


       would provide additional funds. Providing additional funding is not a sufficient
       strategy for mitigating cost risk.

   • 	 The business approach, including procurement methods, was not identified within
       the acquisition plan.

According to the FAR, the contracting officer should meet early and often with the
acquisition planner to ensure that the plan fully supports the proposed acquisition
approach. Because the contracting officer was not involved with acquisition planning,
the planner presented a deficient acquisition plan that did not address significant
contracting procedures. Had contracting personnel been involved with acquisition
planning, many of the issues and risks associated with the contract awards to
iTechnologies may have been mitigated or eliminated by sound analysis and planning.

In addition to the lack of contracting officer involvement in developing the acquisition
plan, such plans are required to be approved by various SBA officials; this was not done
for the draft acquisition plan. FAR Part 7, Acquisition Plans, Subpart 103 (FAR 7.103)
states that Agency Heads shall prescribe procedures for reviewing and approving
acquisition plans and revisions to those plans. According to SOP 00 11 IH, Annual
Acquisition and Procurement Planning, no procurement action shall be taken prior to the
approval of the planned acquisition by the Associate AA for M&A. Further, IT
acquisitions exceeding $500,000 must be approved by nine additional SBA officials and
receive concurrence from the competition advocate and the Office of General Counsel
(OGC). Because the IT hardware and software acquisition plan was not appropriately
reviewed or approved, the contracting officer should not have awarded the contracts to
iTechnologies.

It appeared that the first procurement was awarded in an expedited manner to use the
unobligated FY 2009 funds. The Agency disregarded required acquisition planning and
normal clearance procedures, including a legal review by OGC. A simple review of the
acquisition plan would have revealed numerous deficiencies.

This procurement created a risk to the Agency because the draft acquisition plan was
inadequate and incomplete. SOP 00 11 IH acknowledges this potential risk by stating
that "failure to plan acquisitions and to schedule the overall acquisition workload has
resulted in an inordinate number of contract awards being made in the closing weeks,
days and hours of the fiscal year, and has not always resulted in obtaining the best source
of supply on the best terms for the Agency".

SBA Used Incorrect NAICS Codes

SBA used incorrect NAICS codes to determine the size standards for procuring IT
hardware and software from iTechnologies. SBA uses NAICS codes to determine
whether firms meet the size standards to qualify as small businesses in different
industries. According to 13 CFR 121.402, What Size Standards are Applicable to
Federal Government Contracting Programs, the contracting officer designates
                                                                                                                            6


the NAICS code that best describes the principal purpose of the product being acquired.
The procurement is usually classified according to the component that makes up the
greatest percentage of contract value. In addition, procurements for supplies must be
classified under the appropriate manufacturing code, not under the wholesale trade
NAICS code.

Since IT hardware and software are supplies, SBA should have used NAICS
code 334111, Electronic Computer Manufacturing, for the procurement ofIT hardware
and software from iTechnologies. Instead, SBA incorrectly classified contract
SBAHQ-09-D-0009, under NAICS code 541519, Other Computer Related Services. In
addition, SBA did not identify the NAICS code for any of the five purchase order
contracts, (SBAHQ-10-M-0111, SBAHQ-10-M-0118, SBAHQ-10-M-0119,
SBAHQ-10-M-0130, or SBAHQ-10-M-0135); and it incorrectly reported NAICS
code 423430, Computer and Computer Peripheral Equipment and Software Merchant
Wholesalers, to FPDS-NG. Further, SBA incorrectly classified contract
SBAHQ-10-D-000I and BPA SBAHQ-10-A-000I under NAICS code 423430. Had
these procurements been properly classified as supply contracts, it would have been
apparent that the Non-manufacturer Rule (described below) applied.

The Requirement Did Not Qualify for an 8(a) Sole-Source Procurement

SBA pursued an 8(a) contractor to procure IT hardware and software. Because hardware
and software are tangible manufactured items, the procurement was subject to the Non­
manufacturer Rule. According to CFR, Title 13, Part 121, Subsection 406, Size
Eligibility Requirementsfor Government Procurement (13 CFR 121.406), to qualify as a
small business concern for an 8(a) contract, a small business must either be: (1) the
manufacturer of the item being purchased, to include modification of an end item of
which the small business increased the value by 50 percent or more; or (2) a non­
manufacturer, which normally sells the type of item being supplied and the end item must
be the product of a small business, or the contracting officer must obtain a waiver from
the SBA Administrator. iTechnologies did not qualify as a manufacturer because they do
not produce hardware or software, nor did they add 50 percent or more value to the end
products required by SBA. iTechnologies also did not qualify as a non-manufacturer
because the end products were not those of small businesses, nor did SBA obtain the
requisite waiver authorizing the sale of the end products oflarge businesses, such as Dell,
Hewlett Packard, and Adobe.

The acquisition team should have recognized that neither a small business nor an 8(a) set
aside contract should be awarded because the procurement would result in a "pass
through" to large businesses. According to iTechnologies personnel, iTechnologies is
unable to purchase IT hardware and software directly from manufacturers such as
Hewlett Packard and Adobe. Therefore, iTechnoiogies 6 subcontracted through Ingram
Micro, a Fortune 100 company, to obtain much of the IT hardware and software needed
to meet SBA's requirement. In addition, some of the items SBA received through

6   It appears that another non-8a small business, The Look Enterprises, was also involved in ordering items on behalf of
    iTechnologies.
                                                                                                                                   7


iTechnologies were marked with Costco labels. Essentially, iTechnologies served as an
"order taker," which in turn, ordered IT hardware and software items from large business
suppliers or from the manufacturer. Although the procurement did not qualify for an 8(a)
award, SBA reported 46 percent of contract actions for the procurement as 8(a) contract
awards, which inappropriately resulted in SBA receiving credit for small business, 8(a)
contracting in its annual small business procurement goaling report. We believe that
misreporting damages the integrity of SBA and its programs. As the Federal
government's small business advocate, SBA should discourage misuse of the 8(a)
program and promote its integrity. Failure to follow program requirements, however,
sends the opposite message.

SBA Split the Requirement Which Circumvented 8(a) Sole-Source
Limits

In addition to not qualifying as an 8(a) procurement because the requirement did not meet
the Non-manufacturer Rule, SBA split the requirement, which circumvented 8(a) sole­
source limits. A procurement offered and accepted for the 8(a) Business Development
Program must be competed among eligible 8(a) firms if the anticipated award price will
exceed $5.5 million 7 for manufactured products. SBA identified a minimum cost range
of$5 to $10 million for this requirement. According to CFR 124.506, for IDIQ type
contracts, the thresholds are applied to the maximum order amount authorized.
Therefore, this procurement did not qualify for an 8(a) sole-source contract award.

The Competition in Contracting Act of 1984 (CICA) established a preference for
awarding contracts on the basis of competition. Instead of competing the procurement,
SBA used 8(a) sole-source procurements, which is an authorized exception to the CICA.
However, the procurement did not meet the 8(a) requirements because it did not comply
with the Non-manufacturer Rule and because the overall requirement exceeded the 8(a)
sole-source limits. According to FAR 19.805-1, Competitive 8(a), a proposed 8(a)
requirement with an estimated value exceeding the applicable threshold shall not be
divided into several requirements in order to use 8(a) sole-source procedures for award
to a single firm.

Despite the fact that FAR 19.805 explicitly prohibits the splitting of requirements, SBA
chose to award multiple contracts to a single contractor using 8(a) sole-source
procedures. SBA split the requirement to procure IT hardware and software among
several contract vehicles, including two IDIQ contracts, a BPA, and five purchase order
                                                               8
contracts. The first two IDIQ contracts, totaling $7.4 million , were issued within 11
weeks of each other. All eight contract vehicles were awarded in less than seven months.




7 On October 1, 2010, a revision to FAR 19.805 increased the competitive threshold for manufacturing NAICS codes to $6.5 million
  and $4 million for all other acquisitions.
8 IDIQ contracts SBAHQ-09-D-0009 and SBAHQ-lO-D-OOOl are valued at $5.0 million and $2.0 million respectively.

    On September 28,2009, SBA increased the value ofIDIQ contract SBAHQ-09-D-0009 to $5,442,740 via Modification 000l.
                                                                                           8


SBA Inaccurately Reported Contract Data to the FPDS-NG

SBA inaccurately reported at least one data element to FPDS-NG relating to 100 percent
of the 120 contract actions associated with the awards made to iTechnologies.
The primary areas of inaccurate reporting included contract value, type of funding,
competition characteristics, and contractor data. In addition, we identified several
contract actions which were never reported to FPDS-NG.

Contract Value

On multiple occasions, SBA contracting personnel incorrectly reported contract values of
iTechnologies contracts to FPDS-NG. For example:

   • 	 The initial value of contract SBAHQ-09-D-0009 was $5 million; however, the
       value was reported to FPDS-NG as $4.29 million, a difference of$710,000.

   • 	 SBA misreported the value of delivery orders SBA0031, SBA0032, and SBA0033
       under contract SBAHQ-09-D-0009, which were cancelled prior to award.
       These three delivery orders totaled approximately $222,000.

   • 	 SBA reported a $19,327 delivery order (SBA0016) under contract 

       SBAHQ-10-D-0001, which was never awarded to iTechnologies. 


   • 	 SBA did not report Modification numbers 5 and 6 and delivery orders SBA0020,
       SBA0053, and SBA0054 for contract number SBAHQ-09-D-0009. For contract
       SBAHQ-10-D-0001, SBA did not report delivery orders SBA0006 and SBA0008.

   • 	 SBA reported delivery order SBA010 to FPDS-NG but the delivery order number
       is inconsistent with SBA's delivery order numbering system and could not be
       identified in the contract file.

Type ofFunding

We identified several instances of inaccurate reporting related to Recovery Act funding:

   • 	 Modification 3 and delivery order SBA0002, issued under contract SBAHQ-09­
       D-0009, were not reported to FPDS-NG as Recovery Act funded, despite contract
       documentation which clearly demonstrates that both contract actions were, in fact,
       funded by the Recovery Act.

   • 	 Delivery orders SBA0011 and SBA0012 under contract SBAHQ-10-D-0001 were
       inaccurately reported as Recovery Act funded within FPDS-NG. However, SBA
       did not use Recovery Act funds for either delivery order.
                                                                                                                            9


Competition Characteristics

The FPDS-NG Data Dictionary includes the field Extent Competed, which represents the
competitive nature of the contracts. Contract actions may be classified as one of nine
codes, including but not limited to: full and open competition, not available for
competition, competed under Simplified Acquisition Procedures (SAP), and non­
competitive delivery order (NCDO). SBA incorrectly reported numerous competition
characteristics to FPDS-NG for the contracts and BPA awarded to iTechnologies.

         • 	 Seven contract actions were reported as "Competed" despite all of the contract
             actions being awarded on an 8(a) sole-source basis.

         • 	 In justifYing the use of sole-source contracting, 60 contract actions cited "No Set
             Aside Used," despite the actions being 8(a) set-asides. In addition, 2 contract
             actions cited "Only One Source," despite the availability of numerous potential
             sources.

                                                                                        9
         • 	 Nine contract actions had incomplete competition fields.

         • 	 SBA left multiple non-competition data fields incomplete.

Contractor Data

We noted that contract location could not be supported.

         • 	 According to contract documentation for SBA's IDIQ contracts
             SBAHQ-09-D-0009 and SBAHQ-IO-D-OOOI, contract work is to be performed at
             the contractor's location. As the prime contractor, iTechnologies is located in
             Tomball, Texas. However, the majority of the delivery orders issued under these
             IDIQ contracts were reported to FPDS-NG as having been performed in
             Washington, DC.

         • 	 BPA SBAHQ-IO-A-OOOI states that the place of performance will be determined
             on the delivery order level. After reviewing each delivery order, we found that no
             place of performance was identified, but delivery orders SBAOOO 1, SBA0002,
             SBA0003, and SBA0004 were reported in FPDS-NG as having been performed in
             Washington, DC and delivery order SBA0006 was reported as having been
             performed in Atlanta, Georgia.

Additional details on the comparison of FPDS-NG data to SBA's iTechnologies contract
files are contained in Appendix II. All of the above FPDS-NG reporting discrepancies
occurred because SBA contracting personnel did not adequately review contract data
before or after it was submitted to FPDS-NG. Had the contracting officer compared


9 	The
     FPDS-NG Data Element Dictionary, Version 1.3, dated December 4,2009 defines competition fields as "Extent Competed,"
 "Other Than Full and Open Competition," and "Type of Set Aside."
                                                                                          10


contract data to FPDS-NG reports, the contracting officer would have realized the FPDS­
NG reporting deficiencies and should have corrected the errors.

SBA has a history of inaccurately reporting data to FPDS-NG. SBA OIG Report Number
10-08, SEA's Efforts to Improve Acquisition Data in the Federal Procurement Data
System, reported data inaccuracy rates of 92 percent in FY 2008 and 97 percent in
FY 2009. Since most of the inaccurate reporting identified within this report involved
contract actions during FY 2010, it is apparent that SBA has not implemented any
corrective actions to satisfy recommendations made in SBA OIG Report Number 10-08.

RECOMMENDATIONS

We recommend that the CFO:

   1. 	 Instruct the contracting officer to immediately terminate contracts
        SBAHQ-09-D-0009, SBAHQ-10-D-0001, and BPA SBAHQ-10-A-000l and
        re-solicit the IT hardware and software requirement using full and open
        competition procedures.

   2. 	 Implement and provide annual training to contracting personnel on acquisition
        planning, the appropriate use ofNAICS codes and the Non-manufacturer Rule.

   3. 	 Exclude contracts SBAHQ-09-D-0009, SBAHQ-10-D-0001, BPA
        SBAHQ-10-A-000l and all associated delivery orders and BPA calls from SBA
        calculations used to determine the number of 8(a) program contracts and small
        business contracts for fiscal years 2009 and 2010.

   4. 	 Implement and provide training to contracting officers on reporting contract data
        to FPDS-NG on an as-needed basis.

   5. 	 Conduct a comprehensive review of data submitted to FPDS-NG for SBA
        contracts awarded to iTechnologies, reconcile all discrepancies identified, and
        correct any inaccurately reported data.

   6. 	 Hold contracting officers accountable for FPDS-NG data accuracy requirement by
        incorporating FPDS-NG data accuracy reporting requirements in each contracting
        officer's performance plan.
                                                                                         11 



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On January 11,2011, we provided a draft of this report to SBA's Office of the Chief
Financial Officer (OCFO) for comment. On February 11,2011, SBA submitted its
formal comments, which are contained in their entirety in Appendix II. Management
agreed with recommendation six and partially agreed with recommendations one through
five. The Agency's comments and our evaluation of them are summarized below.

Management Comments

Comment 1

Management noted that the draft report was a review of contract actions that were
executed prior to the Procurement Division's realignment under OCFO. Since this
realignment, OCFO has taken the following steps to improve acquisition practices at
SBA:

   • 	 Hiring ten new procurement staff members,
   • 	 Training procurement staff members on Small Business-Set Asides and the
       Non-manufacturer Rule, and
   • 	 Reinvigorating the Agency's advance acquisition strategy.

Management further stated that the OCFO will use this audit report to continue to identifY
priorities that must be addressed to improve Procurement Division performance.

01G Response

We agree with management's assertion that the contract actions reviewed for this audit
were executed prior to the aforementioned realignment. We also agree that OCFO has
taken several appropriate steps toward improving SBA's acquisition practices and the
overall performance of the Procurement Division.

Comment 2

Management did not concur with the audit team's assertion that "BPAs may not be
awarded when there is an existing contract for the same supplies or service." According
to OCFO, FAR 13.302-2(a)(4) states that BPAs cannot be used with requirements
contracts. Management further stated that since the other vehicles we reviewed were
IDIQ contracts rather than requirements contracts, the BPA award was appropriate.

01G Response

The audit team found that Management incorrectly cited the FAR. The correct citation is
FAR 13.303-2(a)(4), which states that "Contracting officers may establish a BPA ifthere
is no existing requirements contract for the same supply or service that the contracting
                                                                                            12


activity is required to use." We agree with OCFO's interpretation of the FAR; since the
additional contract vehicles were IDIQs rather than requirements, this section of the FAR
did not bar SBA from issuing a BPA for the procurement of IT hardware and software.
We revised the report accordingly.

Comment 3

Management also disagreed with the audit team's assertion that SBA split the same
requirement among several procurement vehicles in order to circumvent the $3.5 million
8(a) sole-source threshold. OCFO stated that based on a lack of coordination, training,
and shortfalls in the skill set of the procurement workforce at the time these vehicles were
issued; it is improbable that the threshold was purposefully and willfully circumvented.
Management further added that, insofar as each requirement was viewed separately, no
regulation or law required that they be bundled into one overarching requirement.

DIG Response

While the procurement workforce may not have purposefully circumvented the
8(a) sole-source threshold, the requirement to procure IT hardware and software was split
by OCIO among several procurement vehicles in order to circumvent the 8(a) sole-source
threshold. OCIO estimated minimum costs at $5 - $10 million and realized that such
costs would require the use of 8(a) competitive procedures. OCIO personnel stated they
originally intended to procure IT hardware and software through an Alaska Native
Corporation because of the unlimited sole-source threshold. In addition, OCIO used the
same acquisition plan, the same statement of work, and the same CLIN list to award both
IDIQ contracts and the BPA. Further, OCIO personnel informed the audit team that
OCIO intended to expend the full value ofIDIQ contract SBAHQ-09-D-0009 in two
years rather than five. At that time, OCIO planned to issue a new contract vehicle. This
evidence points to SBA purposely splitting the contract requirements in order to
circumvent the $3.5 million 8(a) sole-source threshold.

Recommendation 1

Management Comments

Management partially agreed with the recommendation. Management stated that they
will not place any more orders against the contract vehicles but stated that they believe
termination is unnecessary and may incur additional costs for the Agency. In addition,
management did not commit to using competitive procedures for future awards.

DIG Response

We consider management comments to be partially responsive to our recommendation.
The audit team found that SBA met the minimum guaranteed amount for each of the
three procurement vehicles reviewed, relieving the government of its liability to the
contractor. This eliminates the risk that the Agency may incur additional costs for
                                                                                     13


terminating the contracts. In addition, SBA obligations exceeded the contract value for
IDIQ contract SBAHQ-09-D-0009. Further, all three of the procurement vehicles were
inappropriately awarded using 8(a) sole-source procedures, despite the fact that the
requirement did not qualify for 8(a) award under the Non-manufacturer Rule and the fact
that, based on estimated contract costs, the award should have been awarded using
competitive procedures. At a minimum, the OIG believes that SBA should solicit a new
contract award using competitive procedures.

Recommendation 2

Management Comments

Management partially agreed with the recommendation. Management stated that since
the Procurement Division has been realigned under OCFO, most of the procurement staff
has been replaced and new staff members have received training on small business set­
asides, the FAR, acquisition best practices, and the Non-manufacturer Rule. Further,
management stated that contracting officers receive on-going training concerning small
business issues and acquisition planning. OCFO management does not believe that
annual training on the specific issues identified by the audit team is an appropriate
recommendation, as none of the issues reported was the product of new staff members.

DIG Response

We consider management comments to be responsive to our recommendation and deleted
"annual" from our recommendation.

Recommendation 3

Management Comments

Management partially agreed with the recommendation. Management stated that they are
awaiting feedback from the Office of Management and Budget's (OMB's) Office of
Federal Procurement Policy (OFPP) regarding prior year data in FPDS-NG. OCFO
management added that the Procurement Division has discovered additional data integrity
issues and that SBA is working with OFPP to develop an alternative data validation plan.
Management stated that OCFO will review FPDS-NG in accordance with the new data
validation plan and will make the necessary corrections.

DIG Response

We consider management comments to be responsive to our recommendation.
                                                                                           14


Recommendation 4

Management Comments

Management partially agreed with the recommendation. Management stated that the
Procurement Division will provide FPDS-NG training for new staff members this fiscal
year but stated that the data entry issues identified in our report were the result of actions
prior to the realignment and re-staffing of the Procurement Division. OCFO management
added that the Procurement Division will continue to provide FPDS-NG training on an
as-needed basis.

DIG Response

We consider management comments to be responsive to our recommendation. We
amended our recommendation to state, provide training on an as-needed basis.

Recommendation 5

Management Comments

Management partially agreed with the recommendation. Management stated that SBA is
engaged in an open dialogue with OMB's OFPP regarding FPDS-NG data validation and
verification issues. Further, management stated that OMB has provided an alternative
data validation plan and that OCFO will review all FPDS-NG data in accordance with
this plan and will make the necessary corrections.

DIG Response

Management comments appear to be responsive to our recommendation; however, we
will obtain more details on the corrective actions during the audit follow-up process.

Recommendation 6

Management Comments

Management agreed with the recommendation. Management stated that FY 2011
contracting officer performance plans will contain a sub-element regarding data integrity
with a specific reference to FPDS-NG data integrity.

DIG Response

We consider management comments to be responsive to our recommendation.
                                                                                       15


ACTIONS REQUIRED

Please provide your management decision for each recommendation on the attached SBA
Forms 1824, Recommendation Action Sheet, within 30 days from the date of this report.
Your decision should identify the specific action(s) taken or planned for each
recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Small Business Administration
during this review. If you have any questions concerning this report, please call me
at (202) 205-[ex. 2] or Riccardo R. Buglisi, Director, Business Development Programs
Group at (202) 205-[ex. 2]
                                                               16
APPENDIX I. COMPARISON OF FPDS-NG DATA TO SBA'S
iTECHNOLOGIES CONTRACT FILES

I = Inaccurate
B = Blank




Contract Actions

SBAHQ09D0009                       I               I       I
SBAHQ09D0009
Modification 1             I       I               I       I
SBAHQ09D0009
Modification 2             I       I               I       I
SBAHQ09D0009
Modification 3                                     I       I
SBAHQ09D0009
Modification 4                     I               I       I
SBAHQ09D0009
Modification 5     B   B   B   B   B   B   B   B   B   B   B
SBAHQ09D0009
Modification 6     B   B   B   B   B   B   B   B   B   B   B
SBAHQ09D0009
SBAOOOI                    I                   B   I   B   I
SBAHQ09D0009
SBA0002                    I           I       B   I   I   I
SBAHQ09D0009
SBA0003                                            I   B   I
SBAHQ09D0009
SBA0004                                            I   B   I
SBAHQ09D0009
SBA0005                        I       I           I   B   I
SBAHQ09D0009
SBA0006                                I           I   B   I
SBAHQ09D0009
SBA0007                                I           I   B   I
SBAHQ09D0009
SBA0008                    I   I   I   I           I   B   I
SBAHQ09D0009
SBA0009                    I           I           I   B   I
SBAHQ09D0009
SBAOOIO                    I           I           I   B   I
SBAHQ09D0009
SBAOOll                                I           I   B   I
                                                                                                                              17

APPENDIX I. COMPARISON OF FPDS-NG DATA TO SBA'S
iTECHNOLOGIES CONTRACT FILES (continued)

                                                                                                          =
I = Inaccurate
B = Blank                   -
                            >.
                            QJ
                            .::
                                                               QJ
                                                               Cj

                                                               =
                                                               ~
                                                                                   =
                                                                                                         .;
                                                                                                         ~

                                                               -=­-
                                                         QJ
                                                        .a     e
                    -=                                                                                   -=
                            1)                                                     QJ
                                                         ~                         Q.,                   .Q
                    QJ
                            ~                           ;,     .$                  0                      e>.
                            ~
                   5....    ·a                           '"
                                                         =     QJ

                                                               ....         -==                          1LJ
                                                                                                         ....
                    QJ

                   -=....
                   ....     =
                            QJ

                            -==
                                                  =
                                                 .$
                                                 ....
                                                        .$
                                                        ....
                                                        0
                                                         Q.,    =
                                                               QJ
                                                                  e
                                                                     -=.... '3
                                                                        QJ
                                                                             QJ

                                                                            r..
                                                                             QJ
                                                                                   -
                                                                                   ~

                                                                                  :5!
                                                                                     '"
                                                                                                   QJ
                                                                                                         =
                                                                                                         ==
                    = ....-=                                                    = -<....
                                                 ~             Cj                                        Cj
                                                                             Q.,
                                                 .~         !! ~             =
                                          -=            ~ =-z e .=;t::
                                                                                                         Cj
                    QJ
                                                 :c                          ~ .$                        -<
                                                        -== .--; ;:= U....= Eo-~ 1LJ....
                                          QJ
                    e       QJ
                                           =
                                                                                                   QJ

                                                                                                          c ..
                   -==
                    QJ
                       =
                            Cj

                            QJ­
                                     QJ
                                          ~
                                          00
                                                 0
                                                  =      ~
                                                               Q.,=

                                                                      ....=
                                                                        ~
                                                                                e =                       '"= =
                                                                                                              =
                                                                                                                         1LJ
                                                                                                                         u....
                   =­-
                    Cj      QJ . ­
                                          ....
                                          QJ     .$
                                                 ....    QJ
                                                            .5
                                                               Cj
                                                                             QJ    -QJ
                                                                                                   QJ
                                                                                                         ~
                                                                                   of =
                                                                                             Q.,
                            ""'-=
                            -        Cj
                                                        '"              Cj                         Q.,   QJ         Cj

Contract Actions            ~>            ~      ~      ~
                                                         ~
                                                               =:.5          ~     ou              >.
                                                                                                   Eo­   ~~               ~
SBAHQ09DOOO9
SBAOO12                                                             I                              I        B             I
SBAHQ09DOOO9
SBAOO13                                                             I                              I        B             I
SBAHQ09DOOO9
SBAOO14                                                             I                              I        B             I
SBAHQ09DOOO9
SBAOO15                                   I      I      I           I                              I        B             I
SBAHQ09DOOO9
SBAOO16                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO17                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO18                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO19                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO20            B            B         B      B      B       B            B         B           B        B            B
SBAHQ09DOOO9
SBAOO21                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO22                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO23                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO24                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO25                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO26                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO28                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO29                                   I                         I                              I                      I
SBAHQ09DOOO9
SBA0031             I            I        I      I      I           I        I           I         I            I         I
                                                                                                                              18

APPENDIX I. COMPARISON OF FPDS-NG DATA TO SBA'S
iTECHNOLOGIES CONTRACT FILES (continued)

                                                                                                          =
I = Inaccurate
B = Blank                   -
                            >.
                            QJ
                            .::
                                                               QJ
                                                               Cj

                                                               =
                                                               ~
                                                                                   =
                                                                                                         .;
                                                                                                         ~

                                                               -=­-
                                                         QJ
                                                        .a     e
                    -=                                                                                   -=
                            1)                                                     QJ
                                                         ~                         Q.,                   .Q
                    QJ
                            ~                           ;,     .$                  0                      e>.
                            ~
                   5....    ·a                           '"
                                                         =     QJ

                                                               ....         -==                          1LJ
                                                                                                         ....
                    QJ

                   -=....
                   ....     =
                            QJ

                            -==
                                                  =
                                                 .$
                                                 ....
                                                        .$
                                                        ....
                                                        0
                                                         Q.,    =
                                                               QJ
                                                                  e
                                                                     -=.... '3
                                                                        QJ
                                                                             QJ

                                                                            r..
                                                                             QJ
                                                                                   -
                                                                                   ~

                                                                                  :5!
                                                                                     '"
                                                                                                   QJ
                                                                                                         =
                                                                                                         ==
                    = ....-=                                                    = -<....
                                                 ~             Cj                                        Cj
                                                                             Q.,
                                                 .~         !! ~             =
                                          -=            ~ =-z e .=;t::
                                                                                                         Cj
                    QJ
                                                 :c                          ~ .$                        -<
                                                        -== .--; ;:= U....= Eo-~ 1LJ....
                                          QJ
                    e       QJ
                                           =
                                                                                                   QJ

                                                                                                          c ..
                   -==
                    QJ
                       =
                            Cj

                            QJ­
                                     QJ
                                          ~
                                          00
                                                 0
                                                  =      ~
                                                               Q.,=

                                                                      ....=
                                                                        ~
                                                                                e =                       '"= =
                                                                                                              =
                                                                                                                         1LJ
                                                                                                                         u....
                   =­-
                    Cj      QJ . ­
                                          ....
                                          QJ     .$
                                                 ....    QJ
                                                            .5
                                                               Cj
                                                                             QJ    -QJ
                                                                                                   QJ
                                                                                                         ~
                                                                                   of =
                                                                                             Q.,
                            ""'-=
                            -        Cj
                                                        '"              Cj                         Q.,   QJ         Cj

Contract Actions            ~>            ~      ~      ~
                                                         ~
                                                               =:.5          ~     ou              >.
                                                                                                   Eo­   ~~               ~
SBAHQ09DOOO9
SBA0032             I            I        I      I      I           I        I           I         I            I         I
SBAHQ09DOOO9
SBA0033             I            I        I      I      I           I        I           I         I            I         I
SBAHQ09DOOO9
SBAOO34                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO35                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO36                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO37                                   I                         I                              I                      I
SBAHQ09DOOO9
SBAOO42                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO43                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO44                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO45                                                             I                              I                      I
SBAHQ09DOOO9
SBAOIO              I            I        I      I      I           I        I           I         I            I         I
SBAHQ09DOOO9
SBAOO46                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO47                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO48                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO49                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO50                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO51                                                             I                              I                      I
SBAHQ09DOOO9
SBAOO52                                                             I                              I                      I
                                                                                         19

APPENDIX I. COMPARISON OF FPDS-NG DATA TO SBA'S
iTECHNOLOGIES CONTRACT FILES (continued)

I = Inaccurate
B = Blank                  ->.
                            QJ
                           .::
                                                 QJ
                                                 Cj

                                                 =
                                                 ~
                                                              =
                                                 -=­-
                                           QJ
                                          .a     e
                    -=                                                        -=
                           1)                                 QJ
                                           ~                  Q.,             .Q
                    QJ
                           ~              ;,     .$           0                e>.
                           ~
                   5....   ·a              '"
                                           =     QJ

                                                 ....         -==             1LJ
                    QJ

                   -=
                   ....    =QJ

                           -==
                                          .$
                                          ....
                                          0
                                           Q.,    =
                                                              ~
                                                                        QJ
                                                                       :5!
                           ....                                        -<'"
                                          ~


Contract Actions
SBAHQ09DOOO9
SBAOO53            B          B   B   B   B       B       B       B    B        B    B
SBAHQ09DOOO9
SBAOO54            B          B   B   B   B       B       B       B    B        B    B


      lOAOOOl                     I       I               I        I   I             I
SBAHQIOAOOOI
SBAOOOI                           I        I          I                              I
SBAHQIOAOOOI
SBAOOO2                           I       I           I            I   I             I
SBAHQIOAOOOI
SBAOOO3                           I   I   I           I            I   I             I
SBAHQIOAOOOI
SBAOOO4                           I   I   I           I   I       B    I             I
SBAHQIOAOOOI
SBAOOO6                           I       I           I            I   I             I



      lODOOOl                             I               I                          I
SBAHQIODOOOI
SBAOOOI                                                   I                     B    I
SBAHQIODOOOI
SBAOOO2                                                   I                     B    I
SBAHQIODOOOI
SBAOOO3                                                   I                     B    I
SBAHQIODOOOI
SBAOOO4                                                   I                     B    I
SBAHQIODOOOI
SBAOOO5                                                   I                     B    I
SBAHQIODOOOI
SBAOOO6            B          B   B   B   B       B       B       B    B        B    B
SBAHQIODOOOI
SBAOOO7                                                   I                          I
SBAHQIODOOOI
SBAOOO8            B          B   B   B   B       B       B       B    B        B    B
                                                                                                                              20

APPENDIX I. COMPARISON OF FPDS-NG DATA TO SBA'S
iTECHNOLOGIES CONTRACT FILES (continued)

                                                                                                          =
I = Inaccurate
B = Blank                   -
                            >.
                            QJ
                            .::
                                                               QJ
                                                               Cj

                                                               =
                                                               ~
                                                                                   =
                                                                                                         .;
                                                                                                         ~

                                                               -=­-
                                                         QJ
                                                        .a     e
                    -=                                                                                   -=
                            1)                                                     QJ
                                                         ~                         Q.,                   .Q
                    QJ
                            ~                           ;,     .$                  0                      e>.
                            ~
                   5....    ·a                           '"
                                                         =     QJ

                                                               ....         -==                          1LJ
                                                                                                         ....
                    QJ

                   -=....
                   ....     =
                            QJ

                            -==
                                                  =
                                                 .$
                                                 ....
                                                        .$
                                                        ....
                                                        0
                                                         Q.,    =
                                                               QJ
                                                                  e
                                                                     -=.... '3
                                                                        QJ
                                                                             QJ

                                                                            r..
                                                                             QJ
                                                                                   -
                                                                                   ~

                                                                                  :5!
                                                                                     '"
                                                                                                   QJ
                                                                                                         =
                                                                                                         ==
                    = ....-=                                                    = -<....
                                                 ~             Cj                                        Cj
                                                                             Q.,
                                                 .~         !! ~             =
                                          -=            ~ =-z e .=;t::
                                                                                                         Cj
                    QJ
                                                 :c                          ~ .$                        -<
                                                        -== .--; ;:= U....= Eo-~ 1LJ....
                                          QJ
                    e       QJ
                                           =
                                                                                                   QJ

                                                                                                          c ..
                   -==
                    QJ
                       =
                            Cj

                            QJ­
                                     QJ
                                          ~
                                          00
                                                 0
                                                  =      ~
                                                               Q.,=

                                                                      ....=
                                                                        ~
                                                                                e =                       '"= =
                                                                                                              =
                                                                                                                         1LJ
                                                                                                                         u....
                   =­-
                    Cj      QJ . ­
                                          ....
                                          QJ     .$
                                                 ....    QJ
                                                            .5
                                                               Cj
                                                                             QJ    -QJ
                                                                                                   QJ
                                                                                                         ~
                                                                                   of =
                                                                                             Q.,
                            ""'-=
                            -        Cj
                                                        '"              Cj                         Q.,   QJ         Cj

Contract Actions            ~>            ~      ~      ~
                                                         ~
                                                               =:.5          ~     ou              >.
                                                                                                   Eo­   ~~               ~
SBAHQIODOOOI
SBAOOO9                                                                      I                                               I
SBAHQIODOOOI
SBAOOIO                                                                      I                                               I
SBAHQIODOOOI
SBAOOll                                                                      I                                  I            I
SBAHQIODOOOI
SBAOO12                                                                      I                                  I            I
SBAHQIODOOOI
SBAOO13                                                                      I                                               I
SBAHQIODOOOI
SBAOO14                                   I                         I        I                                               I
SBAHQIODOOOI
SBAOO15                                   I                         I        I                                               I
SBAHQIODOOOI
SBAOO16             I            I        I      I      I           I        I           I         I            I         I
SBAHQIODOOOI
SBAOO17                                   B                         I        I                                               I
SBAHQIODOOOI
SBA0017, Mod 1                            B                         I        I                                               I
SBAHQIODOOOI
SBAOO18                                   B                         I        I                                               I
SBAHQIODOOOI
SBA0018, Mod 1                            B                         I        I                                               I
SBAHQIODOOOI
SBAOO19                                                                      I                                               I
SBAHQIODOOOI
SBAOO20                                   B                         I        I                                               I
SBAHQIODOOOI
SBA0020, Mod 1                            B                         I        I                                               I
SBAHQIODOOOI
SBAOO21                                   I                         I        I                                               I
SBAHQIODOOOI
SBAOO22                                   I                         I        I                                               I
SBAHQIODOOOI
SBAOO23                                                             I        I                                           I
                                                                                                                  21

APPENDIX I. COMPARISON OF FPDS-NG DATA TO SBA'S
iTECHNOLOGIES CONTRACT FILES (continued)

                                                                                                   =
I = Inaccurate
B = Blank                   -
                            >.
                            QJ
                            .::
                                                            QJ
                                                            Cj

                                                            =
                                                            ~
                                                                                =
                                                                                                  .;
                                                                                                  ~

                                                            -=­-
                                                      QJ
                                                     .a     e
                    -=                                                                            -=
                            1)                                                  QJ
                                                      ~                         Q.,               .Q
                    QJ
                            ~                        ;,     .$                  0                  e>.
                            ~
                   5....    ·a                        '"
                                                      =     QJ

                                                            ....         -==                      1LJ
                                                                                                  ....
                    QJ

                   -=....
                   ....     =
                            QJ

                            -==
                                               =
                                              .$
                                              ....
                                                     .$
                                                     ....
                                                     0
                                                      Q.,    =
                                                            QJ
                                                               e
                                                                  -=.... '3
                                                                     QJ
                                                                          QJ

                                                                         r..
                                                                          QJ
                                                                                -
                                                                                ~

                                                                               :5!
                                                                                  '"
                                                                                            QJ
                                                                                                  =
                                                                                                  ==
                    = ....-=                                                 = -<....
                                              ~             Cj                                    Cj
                                                                          Q.,
                                              .~         !! ~             =
                                       -=            ~ =-z e .=;t::
                                                                                                  Cj
                    QJ
                                              :c                          ~ .$                    -<
                                                     -== .--; ;:= U....= Eo-~ 1LJ....
                                       QJ
                    e       QJ
                                        =
                                                                                            QJ

                                                                                                   c ..
                   -==
                    QJ
                       =
                            Cj

                            QJ­
                                  QJ
                                       ~
                                       00
                                              0
                                               =      ~
                                                            Q.,=

                                                                   ....=
                                                                     ~
                                                                             e =                   '"= =
                                                                                                       =
                                                                                                              1LJ
                                                                                                              u....
                   =­-
                    Cj      QJ . ­
                                       ....
                                       QJ     .$
                                              ....    QJ
                                                         .5
                                                            Cj
                                                                          QJ    -QJ
                                                                                            QJ
                                                                                                  ~
                                                                                of =
                                                                                      Q.,
                            ""'-=
                            -     Cj
                                                     '"              Cj                     Q.,   QJ     Cj

Contract Actions            ~>         ~      ~      ~
                                                      ~
                                                            =:.5          ~     ou          >.
                                                                                            Eo­   ~~           ~
SBAHQIODOOOI
SBAOO24                                                          I        I                                   I
SBAHQIODOOOI
SBAOO25                                                          I        I                                   I
SBAHQIODOOOI
SBAOO26                                                          I        I                                   I
SBAHQIODOOOI
SBAOO27                                                          I        I                                   I
SBAHQIODOOOI
SBAOO28                                                          I        I                                   I
SBAHQIODOOOI
SBAOO29                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO30                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO31                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO32                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO33                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO34                                                          I        I                                   I
SBAHQIODOOOI
SBAOO35                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO36                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO37                                                          I        I                                   I
SBAHQIODOOOI
SBAOO38                                I                         I        I                                   I
SBAHQIODOOOI
SBAOO39                                                          I        I                                   I
SBAHQIODOOOI
SBAOO40                                                          I        I                                   I
SBAHQIODOOOI
SBAOO41                                                          I        I                                   I
                                                                                    22

APPENDIX I. COMPARISON OF FPDS-NG DATA TO SBA'S
iTECHNOLOGIES CONTRACT FILES (continued)

I = Inaccurate
B = Blank                  -

                            >.
                            QJ
                           .::
                                               QJ 

                                               Cj 


                                               =
                                               ~
                                                            =
                                               -=-­
                                         QJ
                                        .a     e
                    -
                                                   -=
                           1)                               QJ
                                         ~                  Q.,          .Q
                    QJ
                           ~            ;,     .$           0             e>.
                           ~
                   5....
                       ·a                '"
                                         =     QJ

                                            ....            -==          1LJ
                    =
                    QJ

                   -=
                   ....    =
                           -== 

                            QJ
                                        .$
                                        ....
                                        0
                                         Q.,   =

                                                            ~
                                                                   QJ
                                                                  :5!
                           ....                                   -<'"
                                        ~


Contract Actions
SBAHQIODOOOI
SBAOO42                            I
               I   I                       I
SBAHQIODOOOI
SBAOO43                                             I   I                       I
SBAHQIODOOOI
SBAOO44                            I
               I   I                       I
SBAHQIODOOOI
SBAOO45                            I
               I   I                       I
SBAHQIODOOOI
SBAOO46                                             I   I                       I
SBAHQIODOOOI
SBAOO47                                             I   I                       I
SBAHQIODOOOI
SBAOO48                                             I   I                       I
SBAHQIODOOOI
SBAOO49                                             I   I                       I
                                                                                                    23

APPENDIX II. AGENCY COMMENTS 





   To: 	   Peter L. McClintock
           Deputy Inspector General

   From: 	 10n I. CaTI'er [FOrA ex. 6]
           Chief i!JII!Im:lru Officer

   Date: 	 FebrullTY 7, 20 11

   Re: 	   Response to Draft Report, SBA's Procurement of Information Technology
           Hardware and Software through Isika Technologies, Inc.


   We appreciate the opportunity to review your draft audit entitled "SBA's Procurement of
   Information Technology Hardware and Software through Isika Technologies, Inc." The
   Office of the Chief Financial Officer (OCFO) has reviewed the findings and
   recommendations of Project 10018 and is providing a written response to your report.

   It is important to note this report reviews contracting actions taken prior to the
   realignment of the Procurement Division under the OCFO. Since this reorganization the
   OCFO has taken a number of steps to improve acquisition business practices at the SBA
   including:
              • 	 hiring 10 new procurement staff members,
              • 	 training procurement staff members on Small Business Set-Asides and
                  Non-Manufacturers Rule, and
              • 	 reinvigorating the agency's advanced acquisition strategy.

   The OCFO will use this audit report to continue to identify priorities that need to be
   addressed to create a high performing Procurement Division.

   While the OCFO concurs in part with the recommendations, it does not concur with the
   assertion made on page 3 that "BPAs may not be awarded when there is an existing
   contract for the same supplies or service." Pursuant to Federal Acquisition Regulation
   (FAR) 13.302-2 (a) (4), BPAs cannot be used with requirements contracts. The contract
   discussed in this report is identified as an Indefinite Delivery Indefinite Quantity (LDIQ)
   contract. Pursuant to 48 FAR 16.501 -2 (a), a requirements contract is a type of Indefinite
   Delivery contract but is a distinct type of contract that is separate from an IDIQ contract.

   The OCFO also disagrees with the characterization of splitting the requirement addressed
   on page 7 of this report. The report consistently references and details the lack of Agency
   advance planning and coordination of acquisitions. Based on lack of coordination,
   training and potential skill set shortfalls of the workforce during this period, as identified
   by the Office of the Inspector General (OIG), it is improbable there was a willful,
                                                                                            24

APPENDIX II. AGENCY COMMENTS (continued)
planned attempt to circumvent the threshold. Moreover, to the extent the Agency viewed
each requirement as a separate requirement, no law or regulation compelled the Agency
to bundle separate requirements into a larger requirement in order to meet the Sea)
competitive threshold.

Recommendations and Responses


In addition to these general comments above the OCFO has prepared responses to the six
recommendations made in the report.


   1. 	 Instruct the contracting officer to immediately terminate contracts
        SBAHQ-09-D-0009, SBAHQ-I0-D-0001, and BPA SBAHQ-I0-A-OOOI
        and re-solicit the IT hardware and software requirement using full and
        open competition pioceduies.
       Concur in Part-We will not place any more orders under these acquisitions. As
       these are task or deliver order contracts, or in some cases, blanket purchase
       agreements which are not contracts, termination is unnecessary and could result in
       the Agency incurring additional costs. To the extent we acquire information
       technology goods and services, we will do so in accordance with applicable laws
       and regulations.

   2. 	 Implement and provide annual training to contracting personnel on
        acquisition planning, the appropriate use ofNAICS codes and the non­
        manufacturer rule.
       Concur in Part - Since this reorganization of the Procurement Division into the
       OCFO most of the staff has been replaced and there have been training sessions
       on small business set asides, the FAR, and acquisition best practices. Specific
       training on the Non-Manufacturer Rule was conducted by the Office of General
       Counsel on February 3, 2011. Contracting Officers receive on-going training,
       which includes training concerning small business issues and acquisition
       planning. A requirement of annual training on these specific issues is not an
       appropriate recommendation since none of the reported issues were the product of
       any of the new staff, which has been hired since October I, 2010.


   3. 	 Exciude contracts SBAHQ-09-D-0009, SBAHQ-IO-D-OOOl, BPA
        SBAHQ-I0-A-0001 and all associated delivery orders and BPA calls
        from SBA calculations used to determine the number of 8(a) program
        contracts and small business contracts for fiscal years 2009 and 2010.
       Concur in Part-Pending feedback from the Office of Management and Budget's
       (OMB's) Office of Federal Procurement Policy (OFPP) regarding prior year data
       in Federal Procurement Data System (FPDS-NG). In addition to other DIG
                                                                                                     25

APPENDIX II. AGENCY COMMENTS (continued)

         reports regarding data issues for FY08, FY09 and the referenced issues in this
         report for FY09 and FYI 0, the Procurement Division have discovered other data
         integrity issues. SBA is working with OFPP to develop an alternative data
         validation plan that meets OMB and FAR requirements, while taking into account
         SBA's resources and workload. The OCFO will review all FPDS data in
         accordance with this plan and will make the necessary corrections.


      4. 	 Implement and provide annual training to contracting officers on
           reporting contract data to FPDS-NG.
         Concur in Part- While the Procurement Division will provide FPDS-NG training
         for the new staff this fiscal year, the data entry issues identified in this report are a
         result of contracting actions made prior to the reorganization and staffing of the
         Procurement Division. The Procurement Division will continue to provide FPDS
         training on an as needed basis.


      5. 	 Conduct a comprehensive review of data submitted to FPDS-NG for
           SBA contracts awarded to iTechnologies, reconcile all discrepancies
           identified, and correct any inaccurately reported data.
         Concur in Part- SBA is engaged in open dialogue with OMB's OFPP regarding
         our plan to FPDS-NG verification and validation issues. After reviewing past
         SBA reports, the SBA's FY2011 data quality plan, and learning of our recent
         organizational change, OMB has provided SBA with an alternative data
         validation plan, which meets the OMB and FAR requirements, while taking
         SBA' s resources and workload into consideration. The OCFO will review all
         FPDS data in accordance with this plan and will make the necessary corrections.


      6. 	 Hold contracting officers accountable for FPDS-NG data accuracy
           requirement by incorporating FPDS-NG data accuracy reporting
           requirements in each contracting officer's performance plan.
         Concur with comment. FYII performance plans will contain a sub-element
         regarding data integrity with a specific reference to data integrity for FPDS-NG.

         Thank you for the opportunity to provide comments on this draft report. Our
         office looks forward to working with you as we complete the transition of the
         Procurement Division. If you have any question please contact Bill Cody at (303)
         844· [FOIA ex. 2]


         Sincerely,

         Jon I. Carver 

         Chief Financial Officer 

